BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20A96
DANVILLE CHRISTIAN ACADEMY, INC.,
COMMONWEALTH OF KENTUCKY, EX REL. ATTORNEY
GENERAL DANIEL CAMERON,

Applicants,
V.

ANDY BESHEAR, GOVERNOR OF KENTUCKY,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Motion for Leave to File Brief as Amici
Curiae contains 209 words and the Brief of The
American Medical Associations and The Louisville
Metro Department of Public Health and Wellness in
Support of Respondent contains 993 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.2.
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on December 8, 2020.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

